APPENDIX A.

UNITED STATES COURT
OF APPEALS
FOR THE SIXTH
CIRCUIT OPINION

Fox v. Gray, 2020 U.S. App. LEXIS 32822
United States Court of Appeals for the Sixth Circuit
October 16, 2020, Filed
No. 20-3188

Opinion
ORDER
Lewis Fox, an Ohio prisoner proceeding pro se, appeals a district court judgment denying his
petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254. He now moves for a
certificate of appealability (COA) and to proceed in forma pauperis (IFP). See 28 U.S.CJj
2253(c): Fed. R. Ann. P. 22(b)(2).
Fox was sentenced to ten years of imprisonment after a jury convicted him of two counts of
felonious assault in violation of Ohio Revised Code § 2903.11 with firearm
specifications. See State v. Fox. 2018- Ohio 501. 106 N.E.3d 224. 226 (Ohio Ct. App. Feb JL
2018). The state appellate court affirmed Fox's convictions and sentence, id., and the Ohio
Supreme Court declined to accept his appeal for review, State v. Fox, 152 Ohio.St. 3d 1484,
2018- Ohio 1990. 98 N.E.3d 296 (Ohio 2018) (table). Fox then filed a pro se application to
reopen his appeal pursuant to Ohio Rule of Appellate Procedure 26(B) based on claims that his
appellate counsel rendered ineffective assistance. The state appellate court denied his application
because he failed to submit a sworn statement explaining the basis for his claims and how
counsel's deficiency prejudiced the outcome. See Ohio R. App. P. 26(B)(2)(d). The state
appellate f*21 court also denied reconsideration, and the Ohio Supreme Court declined to accept
jurisdiction over the appeal. State v. Fox. 153 Ohio St. 3d 1460, 2018- Ohio 3257, 104 N.E.3d
791 (Ohio 2018) (table).
Subsequently, Fox filed a petition to vacate or set aside the judgment in the trial court, asserting
the denial of effective assistance of trial counsel on several grounds. While that petition was still
pending, Fox filed his $ 2254 habeas petition, raising claims that the evidence was insufficient to
support his felonious assault convictions and that the trial court improperly refused to instruct the
jury on the lesser included offense of negligent assault—claims that were rejected on the merits
on direct appeal. Fox also presented the ineffective-assistance-of-appellate-counsel claims that
he presented in his Rule 26(B) motion in state court, and the ineffective-assistance-of-trialcounsel claims that he raised in his pending state court petition to vacate. Eventually, the state
trial court ruled on his petition to vacate, but because Fox's appeal of that decision was still
pending, the district court directed Fox to inform the court whether he wished to dismiss the
12

unexhausted claims so that the district court could proceed on the remaining exhausted claims.
Fox then moved to 1*31 dismiss the unexhausted claims, and the district court granted the
motion.
The district court denied Fox's insufficient-evidence and jury-instruction claims on the merits.
The court dismissed his claims regarding his trial counsel's performance because it had granted
Fox's motion to withdraw those unexhausted claims. Finally, the district court determined that
Fox had procedurally defaulted his claims of ineffective assistance of appellate counsel and that
Fox failed to show cause for the default or resulting prejudice. The court also concluded that Fox
could not prove his actual innocence to excuse his procedural default. The district court denied
the petition and denied a COA.
A COA may issue only if a petitioner makes "a substantial showing of the denial of a
constitutional right." 7.8 IJ.S.C. S 2253(cV2T "A petitioner satisfies this standard by
demonstrating that jurists of reason could disagree with the district court's resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further." Miller-El v. Cockrell, 537 U.S. 322, 327, 123 S. Ct. 1029,
154 L. Ed. 2d 931 (2003T Under the Antiterrorism and Effective Death Penalty Act, a district
court shall not grant a habeas petition with respect to any claim 1*41 that was adjudicated on the
merits in the state courts unless the adjudication resulted in a decision that: (1) "was contrary to,
or involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States"; or (2) "was based on an unreasonable determination of the
facts in light of the evidence presented" to the state courts. 28 U.S.C. $ 2254(d). When the
district court denies relief on procedural grounds without reaching the underlying constitutional
claims, the petitioner can satisfy $ 2253fcIC2) only by showing that "jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a constitutional right, and
that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling." Slack v. McDaniel. 529 U.S. 473. 484, 120 S. Ct. 1595, 146 L. Ed. 2d 542
(2000j.
The facts were set forth in the Ohio Court of Appeals' decision on direct appeal, see Fox, 106
N.E.3d at 226-28. and will be repeated only as necessary to resolve this application. In short, Fox
was engaged in an argument with the victims, Mary Griffin and Mary Robinson. During the
argument, Fox shot Griffin in the thigh with a gun that he had hidden behind his leg.
Immediately prior to the shooting, Fox had warned Griffin and 1*51 Robinson that if they didnt
move off his porch that he was going to shoot" them. The felonious assault charges were based
on his injury to Griffin and his attempt to injure Robinson.

Insufficient Evidence
Fox challenges the sufficiency of the evidence to support his convictions for felonious assault.
Sufficient evidence supports a conviction if, "after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the essential elements of
the crime beyond a reasonable doubt." Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781, 61
13

L. Ed. 2d 560 Cl979). A federal court does "not reweigh the evidence, re-evaluate the credibility
of witnesses, or substitute [its] judgment for that of the jury." Brown v. Konteh, 567 F.3d 191,
205 f6th Cir. 2009). The Jackson standard is "applied with explicit reference to the substantive
elements of the criminal offense as defined by state law." Jackson, 443 U.S. at 324 n.16.
Ohio's felonious assault statute prohibits a person from "knowingly" causing "serious physical
harm to another" or causing or attempting to cause "physical harm to another ... by means of a
deadly weapon." Ohio Rev. Code $ 2903.11. Under Ohio law, a person acts "knowingly,
regardless of purpose, when the person is aware that the person's conduct will probably cause a
certain result or will probably be of 1*61 a certain nature." Ohio Rev. Code § 2901.22(B). In
Ohio, a person's state of mind is determined from the totality of the circumstances surrounding
the alleged crime and may be demonstrated through circumstantial evidence. State v. Ingram,
No. 11AP-1124, 2012-Ohio-4Q75. 2012 WL 3861220. at *5 (Ohio Ct. App. Sept. 6, 2012).
Viewing all the evidence most favorably to the prosecution, Jackson, 443 U.S. at 319, the Ohio
Court of Appeals determined that a rational trier of fact could have found Fox guilty of both
counts of felonious assault. The court stated that the trial evidence "reasonably demonstrated that
Fox acted knowingly in causing serious physical harm to Mary Griffin and in attempting to cause
physical harm to Mary Robinson by means of a deadly weapon." Fox. 106 N.E.3d at 229. The
state court considered Fox's verbal threat to shoot Griffin, the act of having his finger on
the trigger when confronting Griffin and Robinson, testimony by a police officer that the
gun required Fox to squeeze the trigger both times it was discharged, testimony that
Griffin and Robinson were in close proximity to Fox and to each other, and testimony that
Fox had pointed the gun toward Griffin while Robinson was "standing close behind." Mat
229-30. Fox argued that the shooting was essentially an accident, shown by evidence that
the gunshot may have 1*71 been a ricochet and not an intentional direct shot. Id. at 229.
But the state appellate court concluded that even if Fox did not intend to injure Griffin or
Robinson, "he fired the weapon under circumstances where the risk of injury supported
the inference that he acted knowingly." Id.
In light of the evidence presented at trial and relied upon by the state court, reasonable jurists
could not debate the district court's conclusion that the Ohio Court of Appeals did not
unreasonably apply the Jackson standard in rejecting Fox's insufficiency-of-the-evidence claim
with respect to his felonious assault convictions. Considering all the evidence, "the jury
reasonably disbelieved Fox's explanation that the shooting was an accident." Id. at 230.

Manifest Weight of the Evidence
Fox argued that the jury's convictions are against the manifest weight of the evidence. However,
a claim that a jury's verdict is against the manifest weight of the evidence is not cognizable on
federal habeas review. Nash v. Eberlin. 258 F. App'x 761, 764 n.4 (6th Cir. 2007), Johnson v...
Havener. 534 F.2d 1232. 1234 16th Cir. 1976T Reasonable jurists could not debate the district
court's rejection of this claim.

14

Instructions on the Lesser Included Offense of Negligent Assault
Fox argues that he was denied due process when the trial court refused to instruct [*8], the jury
on the lesser included offense of negligent assault. But Fox cannot demonstrate the denial of a
constitutional right on this issue because "the Constitution does not require a lesser-included
offense instruction in non-capital cases." See Campbell v. Coyle, 260 F. 3d 531, 541 (6th Cm
20011. Reasonable jurists could not debate the district court's resolution of this claim.

Procedurallv Defaulted Ineffective-Assistance Claims
Fox argues that the state court erroneously applied a procedural bar to his claims regarding
ineffective assistance of appellate counsel. The state court refused to consider these claims
because Fox failed to comply with the requirements of Ohio Rule of Appellate Procedure
26tB¥2irdI when he attempted to raise them in his application to reopen his appeal.
A claim is procedurally defaulted when:
(1) the petitioner fails to comply with a state procedural rule; (2) the state courts enforce the rule,
(3) the state procedural rule is an adequate and independent state ground for denying review of a
federal constitutional claim; and (4) the petitioner cannot show cause and prejudice excusing the
default.
Peonies v. Lafler. 734 F.3d 503. 510 (6th Cir. 2013) (quoting Guilmette v. Howes, 624 F.3d 286,
290 F6th Cir. 20101 (en banc)). This court has held, albeit in a decision involving timeliness,
that Rule 26IBI is "firmly established 1*91 and regularly followed" so as to qualify as an
adequate and independent state procedural rule. Landrum v. Mitchell 625 F.3d 905, 916-17 (6th
Cir. 20101; see also Tavlor v. Buchanan. No. 20-3120, 2020 U.S. Ann. LEXIS 20439, at *9 (6th
Cir. June 30. 2020) ("RuieJ26(BX2)(e) is an independent and adequate state procedural rule.").
And the Ohio Supreme Court has held that the sworn statement required by Rule 26(B)(2)(d) is
"mandatory." State v. Lechner. 72 Ohio St. 3d 374, 1995- Ohio 25. 650 N.E.2d 449, 449 (Ohio
19951 (per curiam). Because the state courts denied Fox's Rule 26(B) motion on procedural
grounds, reasonable jurists would not debate the district court s conclusion that this claim was
defaulted. See Seymour v. Walker. 224 F.3d 542, 549-50 (6th Cir. 2000).
When a "state prisoner has defaulted his federal claims in state court pursuant to an independent
and adequate state procedural rule, federal habeas review of the claims is barred unless the
prisoner can demonstrate cause for the default and actual prejudice ... or demonstrate that
failure to consider the claims will result in a fundamental miscarriage of justice." Coleman
Thompson. 501 II.S. 722. 750. 111 S. Ct. 2546. 115 L. Ed. 2d 640 (1991). Fox has presented no
cause for his default or actual prejudice from it. He argues only that this court should review his
defaulted claims because the state court of appeals' procedural ruling was "subjective." Nor has
Fox established a "fundamental miscarriage of justice" resulting in the conviction of one who is
actually innocent. "[Prisoners asserting [actual] innocence as a gateway [HO] to [procedurally]
15

defaulted claims must establish that, in light of new evidence, 'it is more likely than not that no
reasonable juror would have found petitioner guilty beyond a reasonable doubt.'" House v. Bell,
547II.S. 518. 536-37. 126 S. Ct. 2064. 165 L. Ed. 2d 1 (2006) (quoting Schlupv. Delo, 513 U.S,
298. 327. 115 S. Ct. 851. 130 L. Ed. 2d 808 H995V). Because Fox failed to produce any new
exonerating evidence, reasonable jurists would not disagree with the district court s
determination that no fundamental miscarriage of justice would result from failure to consider
his claims.
Based on the above, reasonable jurists could not debate the district court's determination that
Fox's ineffective-assistance-of-appellate-counsel claims were procedurally defaulted and that he
presented no exception for consideration of the defaulted claims.

claims Regarding Ineffective Assistance of Trial Counsel
Fox moved to withdraw his unexhausted ineffective-assistance claims relating to trial counsel's
performance, and the district court granted that motion so that it could proceed on the remaining
exhausted claims. See Jones v. Bock, 549 U.S. 199, 221-22, 127 S. Ct. 910, 166 L. Ed. 2d 798
('20Q7F Reasonable jurists could not debate the district court's rejection of these claims as
previously withdrawn and not before the court for consideration.
Accordingly, the court DENIES Fox's application for a COA and DENIES his motion [*111,,. to
proceed IFP as moot.

16

APPENDIX B.

UNITED STATES
DISTRICT COURT
JUDGE OPINION

Fox v. Warden, Belmont Corr. Inst., 2020 U.S. Dist. LEXIS
18829
United States District Court for the Southern District of Ohio, Eastern Division
February 5, 2020, Decided; February 5, 2020, Filed
CASE NO. 2:19-CV-00901

Opinion
ORDER
On January 10, 2020, the Magistrate Judge issued an Order and Report and Recommendation
recommending that the petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 be
dismissed and denying Petitioner's request for an evidentiary hearing. (ECF No. 20.) Petitioner
has filed an Objection to the Magistrate Judge's Order and Report and Recommendation. (ECF
No. 21.) Respondent has filed a Response. (ECF No. 22.)
Petitioner again raises all of the same arguments he previously presented. He argues that
the state appellate court unreasonably determined that the evidence is constitutionally
sufficient to sustain his conviction on felonious assault against Mary Robinson, because the
record indicates that she was not standing close to Mary Griffin or in the line of fire, but in
the grassy area off the porch. He again argues that the State failed to establish that
Petitioner had any intent 1*21 to shoot either of the alleged victims and asserts that the
state appellate court wrongly denied his claim that his convictions are against the manifest
weight of the evidence. Petitioner complains that the trial court failed to issue a lesser jury
instruction on negligent assault, thereby denying him a fair trial. Finally, Petitioner argues
that the state appellate court erroneously refused to address the merits of his claim of
ineffective assistance of appellate counsel based on his failure to comply with Rule
26(B¥2¥df of the Ohio Rules of Appellate Procedure.
Pursuant to 28 U.S.C. § 636(b). this Court has conducted a de novo review. For the reasons
already well detailed in the Magistrate Judge's Order and Report and Recommendation,
Petitioner's arguments fail. The record does not reflect that an evidentiary hearing is warranted or
that Petitioner can establish a basis for relief. Accordingly, Petitioner's Objection (ECF No. 21)
is OVERRULED. The Order and Report and Recommendation (ECF No. 20)
is ADOPTED and AFFIRMED. This action is hereby DISMISSED. Petitioner's request for an
evidentiary hearing is DENIED.
Pursuant to Rule 11 of the Rules Governing Section 2254 Cases in the United States District
Courts, the Court now considers whether to issue a certificate of appealability. "In contrast to
an f*3i ordinary civil litigant, a state prisoner who seeks a writ of habeas corpus in federal court
holds no automatic right to appeal from an adverse decision by a district court." Jordan v. Fisher,
18

135 S. Ct. 2647. 2650. 192 I- Ed. 2d 948 120151: 28 U.S.C. § 2253(c)(1) (requiring a habeas
petitioner to obtain a certificate of appealability in order to appeal.)
When a claim has been denied on the merits, a certificate of appealability may issue only if the
petitioner "has made a substantial showing of the denial of a constitutional right." 28 U.S.C. §
2253(c)(2). To make a substantial showing of the denial of a constitutional right, a petitioner
must show "that reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues presented were
'adequate to deserve encouragement to proceed further.'" Slack v. McDaniel, 529 U.S. 473, 484^
120 S. Ct. 1595. 146 L. Ed. 2d 542 (2000) (quoting Barefoot v. Estelle, 463 U.S. 880, 893, n. 4,
103 S. Ct. 3383. 77 L. F.d. 2d 1090 (T983V). When a claim has been denied on procedural
grounds, a certificate of appealability may issue if the petitioner establishes that jurists of reason
would find it debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling. Id.
This Court is not persuaded that reasonable 1*41 jurists would debate the dismissal of
Petitioner's claims as procedurally defaulted or without merit. Therefore, the
Court DECLINES to issue a certificate of appealability.
The Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that the appeal would not be in good faith
and that an application to proceed in forma pauperis on appeal should be DENIED.
The Clerk is DIRECTED to enter final JUDGMENT.
IT IS SO ORDERED.
Date: February 5, 2020
/s/ James L. Graham
JAMES L. GRAHAM
United States District Judge

19

APPENDIX C.

UNITED STATES DISTICT
COURT MAGISTRATE
OPINION

Warden, Belmont Corr. Inst., 2020 U.S. Dist. LEXIS 4314
United States District Court for the Southern District of Ohio, Eastern Division
January 10, 2020, Decided; January 10, 2020, Filed
CASE NO. 2:19-CV-00901

Opinion
ORDER and REPORT AND RECOMMENDATION
Petitioner, a state prisoner, has filed this petition for a writ of habeas corpus pursuant to 23.
U.S.C. § 2254. This matter is before the Court on the Petition, Respondent's Return of Writ,
Petitioner's Reply, and the exhibits of the parties. For the reasons that follow, the
Undersigned RECOMMENDS that this action be dismissed. And Petitioner's request for an
evidentiary hearing is DENIED.

I. FACTS AND PROCEDURAL HISTORY
Petitioner challenges his March 27, 2017, convictions after a jury trial in the Franklin County
Court of Common Pleas on two counts of felonious assault with firearm specifications. The Ohio
Tenth District Court of Appeals summarized the facts and procedural history of the case as
follows:
{^f 2} By indictment filed November 13, 2015, plaintiff-appellee, State of Ohio, charged Fox
with two counts of felonious assault in violation of R.C. 2903.11, with three-year [*2| firearm
specifications. Fox pleaded not guilty and the matter proceeded to a jury trial in January 2017.
As pertinent to this appeal, the following evidence was presented at trial.
{T| 3} Mary Griffin testified as follows. During the evening of October 29, 2015, Mary Griffin
and her grandmother, Mary Robinson, drove to Elaine Robinson s residence. When they arrived,
Elaine opened the door and they all talked, with Mary Griffin and Mary Robinson standing just
outside the front door.
At some point, Fox came down from the upstairs of the residence, and "some words were
exchanged" between Mary Griffin and Fox. (Tr. Vol. II at 160.) Fox called Mary Griffin and
Mary Robinson "bitch[esj," and said if they "didn't move off his porch that he was going to
shoot" them. (Tr. Vol. II at 160.) Fox was only a few feet away from Mary Griffin as they
verbally confronted each other. Mary Griffin heard two or three gunshots and then realized she
had been shot in her upper thigh. Mary Griffin did not see the firearm in Fox's hand prior to
hearing the gunshots, but she observed Fox raise his arm when the shots were fired. Fox had
pointed the gun at Mary Griffin's leg. Mary Griffin denied lunging at or touching_j_3]_ Fox
21

before the shooting. Mary Robinson was standing close behind Mary Griffin at the time of the
shooting.
4} Mary Robinson testified as follows. On the day of the shooting, she and Mary Griffin
intended to pick up Elaine Robinson from her home because she was having problems with her
boyfriend, Fox. After they arrived at Elaine's residence, Elaine told them that Fox would not let
her go with them. Elaine called for Fox, and when he descended the stairs he was angry and
possibly drunk. Fox said, "I'm sick of you bitches." (Tr. Vol. II at 222.) Mary Robinson saw
Fox's right "hand coming up," and then she heard one or two gunshots. (Tr. Vol. II at 213.) Fox
was pointing the weapon at Mary Griffin. Prior to the weapon being discharged, Mary Robinson
did not see Mary Griffin touch Fox in any manner, but they were in close proximity to each
other. Mary Robinson was within arm's reach of Mary Griffin when Fox fired the shots. Fox
"didn't make any threats * * * He just shot [Mary Griffin]." (Tr. Vol. II at 236.) No bullet struck
Mary Robinson.
5} Elaine Robinson, who was called as a witness on Fox's behalf, testified as follows. Fox and
Elaine were living together on the day of the shooting. 1*41 On that day, Mary Griffin and Mary
Robinson arrived at Elaine and Fox's residence upset because of statements Fox had made
regarding Mary Robinson. Elaine called for Fox and told him that "Mary and them are at the
door." (Tr. Vol. Ill at 350.) Fox came down the stairs and to the front door. Elaine did not see
Fox carrying a weapon until she heard two gunshots. Fox did not point the weapon at anyone.
When Fox fired the weapon, he was falling backward in response to Mary Griffin moving her
hands toward Fox. Elaine characterized the shooting as being an accidental consequence of Fox
stumbling backward. Elaine also testified that she told the police after the shooting that Fox shot
downward at the porch to scare away Mary Griffin and Mary Robinson.
{f 6} Fox testified on his own behalf. At approximately 8:00 p.m. on the day of the shooting,
Fox was upstairs at his residence when he heard loud voices downstairs. Fox heard someone
screaming in anger and then heard Elaine call for him in a distressed manner. Because he was
concerned that there was an intruder in the house, he grabbed a gun from his bedroom closet and
brought it with him down the stairs. Holding the gun hidden behind his leg [*51 with his finger
on the trigger, Fox stood in the doorway to the home and told Mary Griffin and Mary Robinson
that they needed to leave. Mary Griffin then "lunged" at him like she was going to grab him. (Tr.
Vol. Ill at 446.) Fox testified that he accidentally shot the firearm twice. Fox "stumbled back * *
* and the firearm just discharged." (Tr. Vol. Ill at 446.) He "even [saw] the fire shoot out twice,
shot twice." (Tr. Vol. Ill at 447.) He did not either raise the gun or shoot at the ground on
purpose. After the weapon fired twice, Fox dropped it on a chair inside the house. When asked
how the firearm discharged, Fox explained, "I guess I squeezed the trigger or something. You
know how you're—an excited moment. I mean, it surprised me." (Tr. Vol. Ill at 457.)
{f 7} After the shooting, and based on information Fox provided, police recovered a five-shot
revolver in the kitchen of Elaine and Fox's residence. Two of the rounds were spent, and the
other three were unfired. Columbus Division of Police Detective Steven Miller, who interviewed
Fox on the night of the shooting, testified that the gun recovered from the scene of the shooting
was a "double-action" firearm. (Tr. Vol. Ill at 288.11*61 For this type of firearm, the hammer
22

must be pulled back with a squeeze or pull of the trigger in order to fire each bullet. The parties
stipulated that Mary Griffin sustained an injury consistent with a single gunshot that entered her
right thigh and exited her right buttock at a down to up trajectory.
{^J 8} At the conclusion of trial, Fox's counsel requested that the trial court instruct the jury on
the offense of negligent assault in addition to instructing the jury on the charged offense of
felonious assault. The trial court declined to give the requested negligent assault instruction, and
the jury found Fox guilty on both counts of felonious assault with firearm specifications. The
trial court sentenced Fox to a total of ten years in prison. Fox timely appeals.

II. Assignments of Error
{f 9} Fox assigns the following errors for our review:
[1.] The trial court erred and deprived appellant of due process of law as guaranteed by
the Fourteenth Amendment to the United States Constitution and Article One Section Ten of the
Ohio Constitution by finding him guilty of felonious assault as those verdicts were not supported
by sufficient evidence and was also against the weight of the evidence.
[2.] The trial court abused its discretion by not 1*71 instructing the jury on the offense of
negligent assault as a lesser included offense of felonious assault.
State V. Fox. 2018-Qhio-501. 106 N.E.3d 224, 226-28 (Ohio 2018). On February 8, 2018, the appellate
court affirmed the judgment of the trial court. Id. On May 23, 2018, the Ohio Supreme Court declined to
accept jurisdiction of the appeal. State v. Fox. 152 Ohio St.3d 1484, 2018-Ohio-1990, 98 N.E.3d 296
(Ohio 20181.
On March 23, 2018, Petitioner filed an application for reopening of the appeal pursuant to Ohio
Appellate Rule 26(B). (Doc. 4, PAGEID # 225). On May 31, 2018, the appellate court denied
the Rule 26(B) application based on Petitioner's failure to comply with the sworn statement
requirement of Rule 26tBV2¥dF (PAGEID # 263). Then, on August 7, 2018, the appellate court
denied Petitioner's motion for reconsideration. (PAGEID # 280). Next, the Ohio Supreme Court
declined to accept jurisdiction of the appeal. State v. Fox. 153 Ohio St.3d 1460, 2018-Ohio-3257.
104 N.E.3d 791 (Ohio 20183.
On November 16, 2017, Petitioner filed a Petition to Vacate or Set Aside Judgment of
Conviction in the state trial court, asserting the denial of the effective assistance of trial counsel
based on his attorney's failure to advise him to accept the government's plea offer, failure to
investigate, call expert witnesses, argue for the lesser included offense of assault, prepare
Petitioner or Elaine Robinson for trial, play portions of the statements of 1*81 Petitioner and
other witnesses, and failure to preserve Petitioner's right to a speedy trial. (PAGEID # 360-73).
On September 5, 2019, the trial court issued a Decision and Entry denying Petitioner's claims.
(Doc. 10-1, PAGEID # 1062). That appeal apparently remains pending.

23

On March 12, 2019, Petitioner filed this pro se habeas corpus petition. He asserts that the
evidence is constitutionally insufficient to sustain his convictions and that his convictions are
against the manifest weight of the evidence (claim one); that he was denied his right to a jury
instruction on the lesser included offense of assault (claim two); that he was denied his right to
the effective assistance of appellate counsel (claim three); and that he was denied the right to the
effective assistance of trial and appellate counsel (claim four). Petitioner has withdrawn his
unexhausted claim of the denial of the effective assistance of trial counsel. (Docs. 16,17).
It is the position of the Respondent that Petitioner's remaining claims fail to provide a basis for
relief.
II. STANDARD OF REVIEW
Because Petitioner seeks habeas relief under 28 U.S.C. § 2254, the Antiterrorism and Effective
Death Penalty Act ("AEDPA") governs this case. 1*91 The United States Supreme Court has
described AEDPA as "a formidable barrier to federal habeas relief for prisoners whose claims
have been adjudicated in state court" and emphasized that courts must not "lightly conclude that
a State's criminal justice system has experienced the 'extreme malfunction' for which federal
habeas relief is the remedy." Burt v. Titlow, 571 U.S. 12, 20, 134 S. Ct. 10,187 L. Ed. 2d 348
12013) (quoting Harrington v. Richter. 562 U.S. 86, 102, 131 S. Ct. 770, 178 L. Ed. 2d 624
(201 ID: see also Renico v. Lett. 559 U.S. 766. 773. 130 S. Ct. 1855. 176 L. Ed. 2d 678
(2010) ("AEDPA...imposes a highly deferential standard for evaluating state—court rulings, and
demands that state-court decisions be given the benefit of the doubt.") (internal quotation marks,
citations, and footnote omitted).
AEDPA limits the federal courts' authority to issue writs of habeas corpus and forbids a federal
court from granting habeas relief with respect to a "claim that was adjudicated on the merits in
State court proceedings" unless the state-court decision either:
(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.
281J.S.C. $ 2254(d).
The United 1*101 States Court of Appeals for the Sixth Circuit has explained the meaning of the
standards found in § 2254(d)(1) as follows:
Under the "contrary to" clause, a federal habeas court may grant the writ "if the state court
applies a rule different from the governing law set forth in our cases, or if it decides a case
differently than we have done on a set of materially indistinguishable facts." Bell v. Cone, 535
U.S. 685.694. 122 S.Ct 1843. 152 T-.Ed.2d 914 (2002) (citing Williams v. Taylor, 529 U.S. 361,
405-06.120 S-Ct. 1495. 146 UEd.2d 389 (2000)). Under the "unreasonable application" clause,
a federal habeas court may grant the writ if the state court identifies the correct governing legal
24

principle from the Supreme Court's decisions but unreasonably applies the law or bases its
decision on an unreasonable determination of the facts, in light of the record before the state
court. Harrington v. Richter, 562 U.S. 86, 100. 131 S.Ct. 770. 178 L.Ed.2d 624 (2011), Williams,
529 U.S. at 412-13. 120 S.Ct. 1495.
Lanw. Bobbv. 889 F.3d 803. 810 t6th Cir. 2018), cert, denied, 139 S. Ct. 798, 202 L. Ed. 2d 588 (2019).
Moreover, under S 2254('d¥2h a state court's factual determination is not "unreasonable" merely
because the federal habeas court would have reached a different conclusion. Wood v. Allen, 5,58
IJ.S. 290. 301. 130 S.Ct. 841. 175 L. Ed. 2d 738 120101. Instead, a state court's factual findings
are "only unreasonable where they are 'rebutted by clear and convincing evidence' and do not
have support in the record." Moritz v. Woods, 692 Fed. Appx. 249, 2017 WL 2241814, at 5 (6th
Cir. 2017) (quoting Pouncv v. Palmer. 846 F.3d 144, 158 (6th Cir. 2017)) (internal quotation
marks omitted). Moreover, "[fjactual determinations by state courts are presumed correct
absent 1*111 clear and convincing evidence to the contrary, § 2254(e)(1), and a decision
adjudicated on the merits in a state court and based on a factual determination will not be
overturned on factual grounds unless objectively unreasonable in light of the evidence presented
in the state-court proceeding^]" Avers v. Hudson, 623 F.3d 301. 308 (6th Cir.
20101 (quoting Miller—El v. Cockrell 537 U.S. 322. 340, 123 S. Ct. 1029, 154 L. Ed. 2d. 931
(2003) ("Miller—El F).
The burden of satisfying AEDPA's standards rests with the petitioner. See Cullen v. Pinholster,
563 U.S. 170. 181. 131 S. Ct. 1388. 179 L. Ed. 2d 557 (2011).

III. DISCUSSION
Petitioner has brought four claims.

A. Claim One
In claim one, Petitioner asserts that the evidence is constitutionally insufficient to sustain his
convictions on felonious assault and that his convictions are against the manifest weight of the
evidence. This latter claim does not provide a basis for relief. See Williams v. Jenkins, No,
1:15cv00567. 2016 U.S. Dist LEXIS 58043. 2016 WL 2583803. at *7 (N.D. Ohio Feb..22,
2016) (citing Nash v. Eberlin. 258 Fed. App'x. 761. 765. n.4 (6th Cir. 2007)); Norton v. Sloan,
No 1 -16-r.v-8S4. 2017 U.S. Dist. TEXTS 18661. 2016 WL 525561. at *5 (N.D. Ohio Feb. 9,
2017}(citing Ross v. Pineda, No. 3:10-cv-391, 2011 U.S. Dist. LEXIS 40134, 2011 WL
1337102. at *3 tS.D. OhioY) ("Whether a conviction is against the manifest weight of the
evidence is purely a question of Ohio law."); see also Taylor v. Warden, Lebanon Corr. InsL^
No. 2:16-cv-237, 2017 U.S. Dist. TEXTS 46769. 2017 WL 1163858. at *10-11 (S.D. Ohio March
29. 2017) (same) (citations omitted). Under Ohio law, a claim that a verdict was against the
manifest weight of the evidence—as opposed to one based upon insufficient evidence—requires
25

the [*121 appellate court to act as a "thirteenth juror" and review the entire record, weigh the
evidence, and consider the credibility of witnesses to determine whether the jury clearly lost its
wa:.y and created such a manifest miscarriage of justice that the conviction must be reversed and a
new trial ordered." State v. Martin. 20 Ohio App.3d 172, 175, 20 Ohio B. 215, 485 N.E.2d 717
0983); cf Tihhs v. Florida. 457 U.S. 31. 102 S. Ct. 2211, 72 L. Ed. 2d 652 (1982). Because a
federal habeas court does not function as an additional state appellate court, vested with the
authority to conduct such an exhaustive review, Petitioner's claim that his convictions were
against the manifest weight of the evidence is not cognizable in federal habeas corpus
proceedings.
As for Petitioner's claim of insufficiency of the evidence, the state appellate court rejected the
argument, reasoning as follows:
fl| 10} Fox's first assignment of error alleges that both of his felonious assault convictions were
not supported by sufficient evidence and were against the manifest weight of the evidence.
Whether there is legally sufficient evidence to sustain a verdict is a question of law. Statej
Thonwkins. 78 Ohio St. 3d 380. 386. 1997-Ohio-52, 678 N.E.2d 541 (1997). Sufficiency is a test
of adequacy. Id. The relevant inquiry for an appellate court is whether the evidence presented,
when viewed in a light most favorable to the prosecution, would 1*131 allow any rational trier of
fact to find the essential elements of the crime proven beyond a reasonable doubt. State v,
Mahone. 10th Dist. No. 12AP-545. 2014-Qhio-1251, 2014 WL 1350969, f 38, citing States
Tenace, 109 Ohio St.3d 255. 2006-Qhio-2417, 847 N.E.2d 386, f 37.

{^f 13} Fox was convicted of violating R.C. 2903.11. which states in pertinent part that "[n]o
person shall knowingly do either of the following: (1) Cause serious physical harm to another * *
* [or] (2) Cause or attempt to cause physical harm to another * * * by means of a deadly
weapon." In challenging his convictions, Fox asserts that Mary Griffin lunged at him during their
confrontation, causing him to fall backward over a piece of furniture and accidentally fire the
weapon. He argues that he did not have the mental state required to be convicted of felonious
assault.
0j 14} "A person acts knowingly, regardless of purpose, when the person is aware that the
person's conduct will probably cause a certain result or will probably be of a certain nature. R.C.
2901.22(B). When determining whether a defendant acted knowingly, his state of mind must be
determined from the totality of the circumstances surrounding the alleged crime. State v. Ingram^
10th Dist. No. HAP-1124. 2012-Qhio-4075. 2012 WL 3861220,122. Culpable mental states are
frequently demonstrated through circumstantial evidence. Id. Evidence that a defendant fired a
gun in a person's direction is sufficient 1*141 evidence that the defendant acted knowingly for
•the purpose of a felonious assault conviction. State v. Jefferson, 6th Dist. No. L-16-1182, 20 IT:
Ohio-7272. 2017 WL 3575607,1 17,
{^f 15} The evidence presented at trial reasonably demonstrated that Fox acted knowingly in
causing serious physical harm to Mary Griffin and in attempting to cause physical harm to Mary
Robinson by means of a deadly weapon. According to Fox s testimony, the shooting was an
26

accident. However, even if it was not Fox's intent to injure either Mary Griffin or Mary
Robinson, he fired the weapon under circumstances where the risk of injury supported the
inference that he acted knowingly. Mary Griffin testified that Fox threatened to shoot her and
Mary Robinson if they did not move off his porch. Fox admitted at trial that he had his finger on
the trigger when he confronted Mary Griffin and Mary Robinson at the door of his residence,
demonstrating he was prepared and ready to fire the weapon. Testimony at trial also showed that
the trigger of the gun that he fired twice had to be squeezed for each bullet discharge with a force
sufficient to pull the hammer back. Further, Fox, Mary Griffin, and Mary Robinson were all in
close proximity to each other when Fox fired the shots, and both Mary Griffin 1*151 and Mary
Robinson testified that Fox pointed the weapon in Mary Griffin's direction. One of the bullets
struck Mary Griffin in the thigh. Additionally, testimony indicated that Mary Robinson was
standing close behind Mary Griffin when Fox fired the two shots, and thus she was also in the
line of fire. Considering this evidence, the jury reasonably disbelieved Fox's explanation that the
shooting was an accident and convicted Fox of two counts of felonious assault.
{TJ16} In sum, the evidence was sufficient to convict Fox of committing two counts of felonious
assault, and Fox fails to show that the jury clearly lost its way and created a manifest miscarriage
of justice. Because Fox's convictions were supported by sufficient evidence.. . we overrule Fox's
first assignment of error.
State v. Fox. 106 N.E.3d at 228-30.
The Fourteenth Amendment’s Due Process clause "protects the accused against conviction except
upon proof beyond a reasonable doubt of every fact necessary to constitute the crime with which
he is charged." In re Winship. 397 U.S. 358. 364. 90 S. Ct. 1068, 25 L. Ed. 2d 368 (1970). The
question in a sufficiency of the evidence claim is "whether, after viewing the evidence in the
light most favorable to the prosecution, any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt." f*161 Jackson v. Virginia, 443 U.S. 307, 319,
99 S. Ct. 2781. 61 L. Ed. 2d 560 (1979) (emphasis in original). The Jackson standard must be
applied "with explicit reference to the substantive elements of the criminal offense as defined by
state law." Brown v. Palmer. 441 F.3d 347. 351 (6th Cir. 2006) (quoting Jackson, 443 U.S. at
324 n.16).
Additionally, when determining if the evidence was sufficient to support a petitioner's
conviction, a federal habeas court must view the evidence in the light most favorable to the
prosecution. Wrisht v. West. 505 U.S. 277. 296, 112 S. Ct. 2482, 120 L. Ed. 2d 225
(1992)(citing Jackson. 443 U.S. at 3191. The prosecution is not affirmatively required to "rule
out every hypothesis except that of guilt." /^.(quoting Jackson, 443 U.S. at 326). Instead, "a
reviewing court 'faced with a record of historical facts that supports conflicting inferences must
presume—even if it does not affirmatively appear in the record—that the trier of fact resolved
any such conflicts in favor of the prosecution, and must defer to that resolution.'" Id. at 29697 (quoting Jackson. 443 U.S. at 326).
On top of all that, federal habeas courts must afford a "double layer" of deference to state court
determinations of the sufficiency of the evidence. As explained in Brown v. Konteh, deference
must be given, first, to the jury's finding of guilt because the standard, announced in Jackson, is
27

whether "viewing the trial testimony and exhibits in the light most favorable to the prosecution,
any rational 1*171 trier of fact could have found the essential elements of the crime beyond a
reasonable doubt." 567 F.3d 191. 205 (6th Cir. 2009). Second, even if a de novo review of the
evidence leads to the conclusion that no rational trier of fact could have so found, a federal
habeas court "must still defer to the state appellate court's sufficiency determination as long as it
is not unreasonable." Id.; see also White v. Steele, 602 F.3d 707, 710 (6th Cir. 2009). This is a
substantial hurdle, one that Petitioner has failed to surmount.
Here, Petitioner argues that the state appellate court unreasonably determined that he pointed a
gun in Griffin's direction because Griffin testified that she never saw the gun and Robinson
testified that she was standing in a grassy area off the porch, that Petitioner never made any
threats, and that he did not point the firearm in her direction. (Reply, Doc. 19, PAGEID # 115657). Additionally, Petitioner again argues that the State failed to establish that he had any intent
to shoot the firearm, as the evidence equally supports his defense that he lost his balance and
fired accidentally. According to Petitioner, an evidentiary hearing may establish that both shell
casings were ejected from the gun at the same time, discrediting the State s evidence [*181 that
he fired twice. (PAGEID # 1158).
Petitioner's arguments are not persuasive. Mary Griffin, Robinson's granddaughter, testified
about the incident. She had gone with her grandmother to pick up Elaine Robinson who had
called her grandmother because she was having domestic issues with the Petitioner. (Transcript,
Doc. 4-1, PAGEID # 562). Elaine came to the door. They did not enter the house. Petitioner
came down. "He was in the front door of his apartment." They exchanged words. He said if they
did not move off his porch he would shoot them. (PAGEID # 565). He said ' If you dont get off
my porch, I'm going to kill y'all." (PAGEID # 575). Petitioner held the gun in his right hand. She
saw it after he shot her. (PAGEID # 572). Griffin stood on the step. Petitioner stood inside the
doorway to the house. Griffin's grandmother stood right next to Griffin. (PAGEID # 573). Griffin
heard the gunshot, moved off the porch, and realized that she had been shot. (PAGEID # 575).
Petitioner raised his arm up to shoot her. (PAGEID # 582). Griffin and her grandmother were
standing in close proximity when he pointed the gun. (PAGEID # 599). Griffin denied lunging at
the Petitioner or making any aggressive 1*191 movement towards him. (PAGEID # 612-13).
Mary Robinson testified that when they arrived at the house, Elaine said that Petitioner would
not let Elaine leave. (PAGEID #617). When Petitioner came downstairs, he looked angry and
drunk. He smelled of alcohol and became verbally abusive. (PAGEID #618).
I was still down there on the ground, and Mary was up there on the porch. And at this time, Mary
stepped back. He came and got in the door. He had — his right hand was down. I turned around
and looked, and I seen his hand coming up. And that's when I seen the gun, and that's when I
heard the shot.
... I couldn't believe that he would bring a gun to the door to shoot two women, and that's what
he did.
(Transcript, Doc. 4-1, PAGEID #618).

28

I seen his right hand come up on the right side, and that's when I seen the gun, but I wasn't for
sure it was a gun. I just didn't want to believe he had it, but it was a gun.
(PAGEID # 626). Griffin never touched the Petitioner. (PAGEID # 628). Mary Robinson was standing
"very close" to her granddaughter when Petitioner shot her. Neither of them ever entered the home.
(PAGEID # 630).
In view of this record, Petitioner has failed to rebut the presumption of 1*201 correctness
afforded to the factual findings of the state appellate court. The record supports the conclusion
that he acted intentionally. His claim that both bullets may have ejected from the gun at one time
constitutes mere speculation and is without record support. Moreover, Petitioner has no right to
an evidentiary hearing in order to attempt to further develop the factual basis for his claim here.
"[A] federal court's review of a state court decision under 28 U.S.C. 2254(d)(1) is strictly limited
to review of the state court record[.]" Campbell v. Warden, London Corr. Institution, No. 1:14cv-13. 2015 U.S. Dist. LEXTS 160262, 2015 WL 7710761. at *4 (S.D. Ohio Nov. 30,
2015) (citing Cullen v. Pinholster. 563 U.S. 170. 182, 131 S. Ct. 1388, 179 L. Ed. 2d 557
(2011)). ■
In sum, Petitioner has failed to establish that the state appellate court contravened or
unreasonably applied federal law or based its decision on an unreasonable determination of the
facts in rejecting his claim of insufficiency of the evidence. Upon review of the record, this Court
agrees that, when viewing all of the evidence in the light most favorable to the prosecution, the
evidence is constitutionally sufficient to sustain his convictions on felonious assault.

B. CLAIM TWO
In claim two, Petitioner asserts that the trial court unconstitutionally refused to issue a jury
instruction on the lesser-included 1*211 offense of negligent assault. The state appellate court
rejected this claim:
{^[ 17} Fox's second assignment of error alleges the trial court erred in not instructing the jury on
the offense of negligent assault in regard to Count 1 of the indictment (Fox's alleged assault of
Mary Griffin). This assignment of error lacks merit.
(Tf 18} This court reviews a trial court's refusal to instruct the jury on a lesser-included offense
under the abuse of discretion standard. State v. Coleman—Muse, 10th Dist. No. 15AP-566, 2016Ohio-5636. 2016 WL 4590151. f 8: State v. Parnell. 10th Dist. No. 11AP-257, 2011-Ohio-6564
2011 WL 6647293.1121-27. The term "abuse of discretion" connotes more than an error of law
or judgment; it implies that the court's attitude is unreasonable, arbitrary, or
unconscionable. State v. Clark. 71 Ohio St.3d 466, 470, 1994-Ohio-43, 644 N.E.2d 331 (1994).
{^| 19} R.C. 2903.14(A) states that "[n]o person shall negligently, by means of a deadly weapon
cause physical harm to another." This court has held that negligent assault, as defined
by R.C. 2903.14, is a lesser-included offense of felonious assault, as defined by FLC
* * *

29

2903.1 IfA¥2) (the provision prohibiting anyone from knowingly causing physical harm to
another by means of a deadly weapon). State v. Anderson, 10th Dist. No. 06AP-174, 2006-Qhio6152. 2006 WL 3365497. IT 38.
{Tf 20} An instruction on a lesser-included offense is required only when the evidence presented
at trial would reasonably support both an acquittal on the crime charged and a conviction on
the 1*221 lesser-included offense. Anderson at 139. citing State v. Carter. 89 Ohio St.3d 593.,
600. 2QOO-Ohio-172. 734 N.F,.2d 345 f2000k see State v. Wine. 140 Ohio St.3d 409, 2014-Qhjg;
3948. 18 N.E.3d 1207. % 34 (a trial court "must give an instruction on a lesser included offense if
under any reasonable view of the evidence it is possible for the trier of fact to find the defendant
not guilty of the greater offense and guilty of the lesser offense").
{^[21} In deciding whether to provide a lesser-included offense instruction, the trial court must
consider both the state's evidence and the defense's evidence, and it must view the evidence in
the light most favorable to the defendant. Anderson at 1139; State v. Monroe, 105 Ohio St.3d 384,
2005-Qhio-2282. 827 N.E.2d 285. f 37. An instruction on a lesser-included offense is not
warranted, however, every time "some evidence" is presented to support the lesser offense. State
v. Noor. 10th Dist. No. 13AP-165. 2014-Ohio-3397. 2014 WL 3827821,If 84. The court must
find "sufficient evidence" to allow a jury to reasonably reject the greater offense and find the
defendant guilty on a lesser-included (or inferior degree) offense. Id. For example, "a defendant's
own testimony that he did not intend to kill his victim does not entitle him to a lesser-included
offense instruction 'if the evidence on whole does not reasonably support an acquittal on the
murder offense and a conviction *231 on a lesser offense.'" Id., quoting State v. Willis, 8th Dist.
No. 99735. 2014-Qhio-l 14. 2014 WL 197876.1 51.
(Tf 22} Therefore, the 1*231 issue presented here is whether the evidence at trial supported both
an acquittal as to the charged offense of felonious assault and a conviction for negligent assault.
A key distinction between the offenses of felonious assault and negligent assault is that felonious
assault requires a knowing mental state, whereas a negligent mental state is sufficient to establish
negligent assault. Anderson at H 39. While a knowing mental state indicates awareness of the
probability that one's conduct will cause a certain result or be of a certain nature, a "person acts
negligently when, because of a substantial lapse from due care, the person fails to perceive or
avoid a risk that the person's conduct may cause a certain result or may be of a certain
nature." R.C. 2901.22(D).
(1f 23} According to Fox's testimony, he fired the gun accidentally twice, and he argues on
appeal that he lacked due care by bringing the gun with him down the stairs to confront the
people at his door. Fox's trial testimony seemed to suggest his view that he lacked any culpable
mental state regarding the firing of the weapon. However, having the trial court instruct the jury
on the offense of negligent assault, in addition to the charged 1*241 offense of felonious assault,
would be inconsistent with an assertion of lack of any culpability. Rather, an acquittal would
have been the appropriate outcome if in fact he lacked any culpable mental state. On appeal, Fox
suggests that the discharge of the weapon was an accident caused by his negligence. He argues
that his discharge of the weapon was the result of him negligently deciding to bring the weapon
with him to confront Mary Griffin and Mary Robinson. Certainly, it is possible that a deviation
from due care may cause an "accidental" shooting. See, e.g., In re I.L.J.F., 12th Dist. No.
30

CA2014-12-258. 2015-Ohio-2823. 2015 WL 4207135. However, Fox's decision to bring the
weapon with him to confront Mary Griffin and Mary Robinson at his front door was not the basis
of the felonious assault charges and his subsequent conduct demonstrated a more culpable
mental state. The assaults occurred when Fox fired the weapon twice when Mary Griffin and
Mary Robinson were within a few feet of him. And the undisputed evidence further
demonstrated that Fox had to pull the trigger each of the two times he engaged the firing
mechanism with enough force to pull the hammer back. On these facts, in view of the undisputed
evidence, no reasonable jury could have found that Fox's [*251 self-asserted deviation from due
care—i.e., his decision to bring the firearm with him to confront Mary Griffin and Mary
Robinson—proximately caused physical harm to Mary Griffm.FNl
FN1: Contrary to the dissent's assertion, we do not suggest that it never would be appropriate to
give both a negligent assault charge and a felonious assault charge to a jury. We find that, under
the facts of this case, it was not an abuse of discretion for the trial court not to instruct the jury on
the offense of negligent assault.
{U 24} Because the evidence at trial did not reasonably support both an acquittal for felonious
assault and a conviction for negligent assault, the trial court did not abuse its discretion in
declining to instruct the jury on negligent assault. Therefore, we overrule Fox's second
assignment of error.
State v. Fox. 106 N.E.3d at 230-31.
This claim fails to provide Petitioner a basis for relief. "Under AEDPA, a threshold issue is to
determine whether there is 'clearly established' law governing the case." Belton v. Woods,
5:16-cv-10647- 2017 U.S. Dist. LEXIS 74902. 2017 WL 2132245, at *3 fE.D. Mich. May 17,
2017) (citing Carey v. Musladin. 549 U.S. 70, 74-77, 127 S. Ct. 649, 166 L. Ed. 2d 482 (2006)).
"Law is 'clearly established' when Supreme Court precedent unambiguously provides a
'controlling legal standard.'" Id. (citing Panetti v. Ouarterman, 551 U.S. 930, 953, 127 S. Ct.
2842. 168 L. Ed. 2d 662 12007)). The Supreme Court has not held that f*261 the Constitution
provides a criminal defendant in a non-death penalty case the right to a jury instruction on a
lesser-included offense:
The right to an instruction on a lesser-included offense in a noncapital case has not been clearly
established by the Supreme Court. See Parker v. Burt. 595 Fed. Appx. 595, 605 (6th Cir. Mich,
2015). The Sixth Circuit stated, "[t]he Supreme Court... has never held that the Due^Process
Clause requires instructing the jury on a lesser included offense in a non-capital case. McMullan
v. Booker. 761 F.3d 662. 667 16th Cir. 2014k see also Campbell v. Coyle, 260 F.3d 531, 541 (6th
Cir. 2001s) ("[T]he Constitution does not require a lesser-included offense instruction in
noncapital cases.") (citing Baebv v. Sowders, 894 F.2d 792, 795-97 (6th Cir. 1990) (en banc)).
Belton v. Woods. 2017 1J.S. Dist. TEXTS 74902, 2017 WL 2132245. at *4. Thus, ”[t]he failure of a state
trial court to instruct a jury on a lesser included offense in a non-capital case is [] not an error cognizable
in federal habeas review." Robinson v. Winn. No. 4:16-cv-l 1738, 2018 U.S. Dist. LEXIS 51096, 201_8
WL 1522437. at *7 (E.D. Mich. March 28. 2018) (citing Bagby v. Sowders, 894 F. 2d 792, 797 (6th
Cir.). cert, denied, 496 IJ.S. 929. TIPS. Ct. 2626. UOL. Ed. 2d 646(1990); Scott v. Elo, 302 F. 3d 598,
606 (6th Cir. 2002). cert, denied, 537 U.S. 1192, 123 S. Ct. 1272, 154 L. Ed. 2d 1026 (2003)).
31

In the absence of a further Supreme Court decision on this matter, a state court determination of
whether instructions on lesser-included offenses were necessary cannot be contrary to, or an
unreasonable application of, clearly established Supreme Court precedent; and thus, falls beyond
the authority of a habeas court. See McMullan v. Booker, 761 F.3d 662, 667 (6th Cir.
2014); Teller v. Renicn. 253 Fed.Annx. 521. 525 (6th Cir. 2007) (where an open question exists
in Sunreme 1*271 Court jurisprudence as to a particular issue of law, no violation of "clearly
established" federal law as determined by the Supreme Court can be shown).
Howardv. DeWine. No. 5:14-cv-2587. 2016 U.S. Dist. LEXIS 59809. 2016 WL 2637757, at *8 (N.D;
Ohio April 6. 2016). Thus, any error in jury instructions will provide relief only where the ailing
instruction so infected the entire trial that the resulting conviction violates due process. Henderson v.
Kihhe. 431 U.S. 145. 154. 97 S. Ct. 1730. 52 L. Ed. 2d 203 (1977) (citing Cupp v. Naughten, 414 UJL
141. 147. 94 S. Ct. 396. 38 L. Ed. 2d 368 (1973)). Such are not the circumstances here. "An omission, or
an incomplete instruction, is less likely to be prejudicial than a misstatement of the law. Id. at 1.55. The
appellate court did not unreasonably conclude that the facts did not support an instruction on the lesserincluded offense of negligent assault in view of undisputed evidence indicating that Petitioner had to pull
the trigger of the gun twice in order to engage the firing mechanism with enough force to pull the hammer
back, and therefore could not have fired the gun accidentally. And claim two is without merit.

C. Claims Three and Four
In claims three and four, Petitioner asserts that he was denied the effective assistance of appellate
counsel. As discussed, on November 4, 2019, the Court granted Petitioner's request to dismiss
claim four, his unexhausted claim of the 1*281 denial of the effective assistance of trial counsel.
{Order, Doc. 17). As for claim three, Respondent argues that this claim is procedurally defaulted.
(Doc. 18, PAGEID # 1142-45).

1. Procedural Default
Congress has provided that state prisoners who are in custody in violation of the Constitution or
laws or treaties of the United States may apply to the federal courts for a writ of habeas
corpus. 28 IJ.S.C. § 2254(a). In recognition of the equal obligation of the state courts to protect
the constitutional rights of criminal defendants, and in order to prevent needless friction between
the state and federal courts, a state criminal defendant with federal constitutional claims is
required to present those claims to the state courts for consideration. 28 U.S.C. § 2254(b), (c). If
the prisoner fails to do so, but still has an avenue open to present the claims, then the petition is
subject to dismissal for failure to exhaust state remedies. Id.; Anderson v. Harless, 459 U.S. 4, 6,
103 S. Ct. 276. 74 L. Ed. 2d 3 f 1982) (per curiam) (citing Picard v. Connor, 404 U.S. 270, 275:
78. 92 S. Ct. 509. 30 L. F.d. 2d 438 (T971). Where a petitioner has failed to exhaust claims but
would find those claims barred if later presented to the state courts, "there is a procedural default
for purposes of federal habeas." Coleman v. Thompson, 501 U.S. 722, 735 n.l, 111 S. Ct. 2546,
115 L. Ed. 2d 640(1991).

32

The term "procedural default" has come to describe the situation where a person [*29] convicted
of a crime in a state court fails (for whatever reason) to present a particular claim to the highest
court of the State so that the State has a fair chance to correct any errors made in the course of
the trial or the appeal before a federal court intervenes in the state criminal process. This
"requires the petitioner to present 'the same claim under the same theory' to the state courts
before raising it on federal habeas review." Hicks v. Straub, 377 F.3d 538, 552-53 (6th Cir.
2Q041 (quoting Pillette v. Foltz. 824 F.2d 494. 497 (6th Cir, 1987)). One of the aspects of "fairly
presenting" a claim to the state courts is that a habeas petitioner must do so in a way that gives
the state courts a fair opportunity to rule on the federal law claims being asserted. That means
that if the claims are not presented to the state courts in the way in which state law requires, and
the state courts therefore do not decide the claims on their merits, neither may a federal court do
so. As the Supreme Court found in Wainwrieht v. Sykes, 433 U.S. 72, 87, 97 S. Ct. 2497, 53..L.
Ed. 2d 594 0977), "contentions of federal law which were not resolved on the merits in the state
proceeding due to respondent's failure to raise them there as required by state procedure" also
cannot be resolved on their merits in a federal habeas case—that is, they are "procedurally
defaulted."
To 1*301 determine whether procedural default bars a habeas petitioner's claim, courts in the
Sixth Circuit engage in a four-part test. See Maupin v. Smith, 785 F.2d 135, 138 (6th Cir.
1986): see also Scuba v. Brimno. 259 F. App'x 713, 718 (6th Cir. 2007) (following the four-part
analysis of Maupin). First, the court must determine that there is a state procedural rule that is
applicable to the petitioner's claim and that the petitioner failed to comply with the rule. Second,
the court must determine whether the state courts actually enforced the state procedural sanction.
Third, the court must determine whether the forfeiture is an adequate and independent state
ground on which the state can rely to foreclose review of a federal constitutional claim. Maupin,
785 F.2d at 138. Finally, if "the court determines that a state procedural rule was not complied
with and that the rule [has] an adequate and independent state ground, then the petitioner" may
still obtain review of his or her claims on the merits if the petitioner establishes: (1) cause
sufficient to excuse the default and (2) that he or she was actually prejudiced by the alleged
constitutional error. Id.
Turning to the fourth part of the Maupin analysis, in order to establish cause, petitioner must
show that "some objective factor external to the defense impeded [*311 counsel's efforts to
comply with the State's procedural rule." Murray v. Carrier, 477 U.S. 478, 488, 106 S. Ct. 2639,
91 L. Ed. 2d 397 (1986). Constitutionally ineffective counsel may constitute cause to excuse a
procedural default. Edwards v. Carpenter. 529 U.S. 446, 453, 120 S. Ct. 1587, 146 L. Ed. 2d 518
r2000). In order to constitute cause, an ineffective assistance of counsel claim generally must
"'be presented to the state courts as an independent claim before it may be used to establish cause
for a procedural defaultEdwards. 529 U.S. at 452 (quoting Murray v. Carrier, 477 U.S. 478,
479. 106 S. Ct. 2639. 91 I- F,d. 2d 397 (1986)). That is because, before counsel's ineffectiveness
will constitute cause, "that ineffectiveness must itself amount to a violation of the Sixth
Amendment, and therefore must be both exhausted and not procedurally defaulted." Burroughs
v. Makowski 411 F.3d 665. 668 66th Cir. 2005). Or, if procedurally defaulted, petitioner must be
able to "satisfy the 'cause and prejudice' standard with respect to the ineffective-assistance claim
itself." Edwards v. Carpenter, 529 U.S. 446, 450-51,120 S. Ct. 1587, 146 L. Ed. 2d 518
(2000). The Supreme Court explained the importance of this requirement:
33

We recognized the inseparability of the exhaustion rule and the procedural-default doctrine
in Coleman: "In the absence of the independent and adequate state ground doctrine in federal
habeas, habeas petitioners would be able to avoid the exhaustion requirement by defaulting their
federal claims in state court. The independent and adequate state ground doctrine ensures that
the 1*32] States' interest in correcting their own mistakes is respected in all federal habeas
" 501 U.S. at 732. 111 S.Ct. 2546. 115 L.Ed.2d 640. We again considered the interplay
cases.__________________
between exhaustion and procedural default last Term in O’Sullivan v. Boerckel, 526 U.S. 83k,
119 S.Ct. 1728. 144 L.Ed.2d 1 (1999). concluding that the latter doctrine was necessary to
'"protect the integrity' of the federal exhaustion rule." Id., at 848. 526 U.S. 838, 119 S.Ct. 1728,
144 L.Ed.2d 1 (quoting id., at 853. 526 U.S. 838, 119 S.Ct. 1728, 144 L.Ed.2d 1 (STEVENS, J.,
dissenting)). The purposes of the exhaustion requirement, we said, would be utterly defeated if
the prisoner were able to obtain federal habeas review simply by "'letting the time run'" so that
state remedies were no longer available. Id.. at 848, 526 U.S. 838. 119 S.Ct. 1728, 144 L.Ed.2d
L Those purposes would be no less frustrated were we to allow federal review to a prisoner who
had presented his claim to the state court, but in such a manner that the state court could not,
consistent with its own procedural rules, have entertained it. In such circumstances, though the
prisoner would have "concededly exhausted his state remedies, it could hardly be said that, as
comity and federalism require, the State had been given a "fair 'opportunity to pass upon [his
claims].'" Id., at 854, 526 IJ.S. 838. 119 S.Ct. 1728, 144 L.Ed.2d 1 (STEVENS, J., dissenting)
(emphasis added) (quoting Parr v. Burford. 339 U.S. 200, 204, 70 S.Ct. 587, 94 L.Ed. 761
(1950)).
Edwards. 529 U.S. at 452-53.
If, after considering all four factors of the Maupin test, the court concludes that a
procedural f*331 default occurred, it must not consider the procedurally defaulted claim on the
merits unless "review is needed to prevent a fundamental miscarriage of justice, such as when
the petitioner submits new evidence showing that a constitutional violation has probably resulted
in a conviction of one who is actually innocent." Hodses v. Colson, 727 F.3d 517, 530 (6th Cir.
2013) (citing Murray v. Carrier. All U.S. 478, 495-96, 106 S. Ct. 2639, 91 L, Ed. 2d 397
Cl 986)).

2. Application
The state appellate court refused to address the merits of claims three and four, dismissed
Petitioner's Rule 26fB) application due to his failure to comply with Rule 26(B)(2)(d), and
required him to submit a sworn statement:
[A]n application to reopen must contain "[a] sworn statement of the basis for the claim that
appellate counsel's representation was deficient with respect to the assignments of error or
arguments raised * * * and the manner in which the deficiency prejudicially affected the
outcome of the appeal." App.R. 26(B)(2)(d); see State v. Lechner, 72 Ohio St. 3d 374, 1995Ohio-25. 650 N.F,.2d 449 (1995) (the sworn statement required by App.R. 26(B)(2)(d) is

34

mandatory). The sworn statement "may include citations to applicable authorities and references
to the record." App.R. 26(B)(2)(d).

Fox has failed to comply with the sworn statement requirement set forth in App.R. 26(B)(2)(d).
Although Fox has submitted an affidavit in support f*341 of his application, the affidavit does
not detail either the basis for his claim that his appellate counsel was deficient or how that
deficiency prejudiced him. Lacking the specific information required under the rule, Fox s
affidavit is insufficient. State v. Saxton, 10th Dist. No. 15AP-16 (Sept. 27, 2016) (memorandum
decision); see State v. Franklinll Ohio St. 3d 372. 1995 Ohio 8, 650 N.E.2d 447 (1995) (an
affidavit simply swearing to the truth of the allegations of an application to reopen falls short of
the particularity required by the rule"). Because Fox has not complied with App.R. 26(B)(2)(d),
we need not address the merits of his application to reopen as that failure independently warrants
the denial of the application. State v. Dinsess, 10th Dist. No. 10AP-848, 2013-Qhio-801,113.
Accordingly, we deny Fox's application to reopen his appeal.
{Memorandum Decision, Doc. 4, PAGEID # 262-3).
Time and again, District Courts have held that a petitioner's failure to comply with Rule
26('B¥2)('d) results in procedural default of a claim. See Jackson v. Sloan, No. l:17-cv-0108JL
2019 U.S. Dist. LEXIS 87196. 2019 WL 2234597. at *8-9 (N.D. Ohio April 24,
20191 ("Petitioner's failure to comply with Ohio App. R. 26(B)(2)(d), and the state appellate
court's enforcement of the procedural rule, results in a procedural default foreclosing
consideration of any grounds for relief that Petitioner attempted to raise therein.") (citations
omitted); see also Burke v. Turner, No. 2:16-cv-01076, 2017 U.S. Dist. LEXIS 184293, 20.17
WL 5157701. at *4 fS.D. Ohio Nov. 7. 2017) 1*351 (citing Gooden v. Bradshaw, No. 5:12-cv2139. 2014 U.S. Dist. LEXIS 118739. 2014 WL 4245951, at *10 (N.D. Ohio Aug. 25,
2014); Belcher v. Smith. No. l:09-cv-627. 2009 U.S. Dist. LEXIS 123660, 2010 WL 256501, at
*5-6 tN.D. Ohio Jan. 21. 2010)).
Petitioner argues that that the state appellate court erroneously or vindictively enforced the sworn
statement requirement of Rule 26(B)(2)(d). because it did not want to address his claim. (Reply,
Doc. 19, PAGEID # 1154-55). This assertion has no record support, and the Undersigned rejects
it.
Petitioner may still secure review of this claim on the merits if he demonstrates cause for his
failure to follow the state procedural rules, as well as actual prejudice from the constitutional
violation that he alleges. "’[Cjause1 under the cause and prejudice test must be something external
to the petitioner, something that cannot fairly be attributed to him[,] ’.. . some objective factor
external to the defense [that] impeded ... efforts to comply with the State's procedural
rule.’" Coleman v. Thompson. 501 U.S. 722. 753, 111 S. Ct. 2546, 115 L. Ed. 2d 640
(1991) (quoting Murray v. Carrier. All U.S. 478. 488, 106 S. Ct. 2639, 91 L. Ed. 2d 397
(T986)) It is Petitioner's burden to show cause and prejudice. Hinkle v. Randle, 271 F.3d 23<L
245 66th Cir, 2001) (citing Lucas v. O'Dea. 179 F.3d 412. 418 (6th Cir. 1999) (internal citation
omitted)). A petitioner’s pro se status, ignorance of the law, or ignorance of procedural
requirements are insufficient bases to excuse a procedural default. Bonilla v. Hurley, 370 F.3d
35

494. 498 (6th Cir.), cert, denied, 543 U.S. 989, 125 S. Ct. 506, 160 L. Ed. 2d 375 (2004). Instead,
in order to establish cause, a petitioner "must present a substantial 1*361 reason that is external
to himself and cannot be fairly attributed to him." Hartman v. Baxley, 492 F.3d 347, 358 (6th
Cir. 2007). cert, denied sub nom. Hartman v. Bobby. 554 U.S. 924, 128 S. Ct. 2971, 171 L. Ed.
2d 897 (^OOS). Petitioner has failed to establish cause for his procedural default.
Likewise, Petitioner has failed to establish that his claims may avoid the procedural bar under the
actual innocence exception. The United States Supreme Court has held that a claim of actual
innocence may be raised "to avoid a procedural bar to the consideration of the merits of [the
petitioner's] constitutional claims." Schluv v. Delo, 513 U.S. 298, 326-27, 115 S. Ct. 851, 130 L.
Ed. 2d 808 (T995). "[I]n an extraordinary case, where a constitutional violation has probably
resulted in the conviction of one who is actually innocent, a federal habeas court may grant the
writ even in the absence of a showing of cause for the procedural default." Murray, All U.S. at
496. In Schlup, the Supreme Court held that a credible showing of actual innocence was
sufficient to enable a court to reach the merits of an otherwise procedurally-barred habeas
petition. Schlup. 513 U.S. at 317. The actual innocence claim in Schlup is '"not itself a
constitutional claim, but instead a gateway through which a habeas petitioner must pass to have
his otherwise barred constitutional claim considered on the merits.'" Id. at 315 (quoting Herrera
v. Collins. 506 IJ. S. 390. 404. 113 S. Ct. 853. 122 L. Ed. 2d 203 (1993)). Nothing in the record
shows that Petitioner 1*371 can satisfy this standard, and the actual innocence exception does not
operate to save his otherwise procedurally defaulted claims.

VI. RECOMMENDED DISPOSITION
For the foregoing reasons it is RECOMMEND that this action be DISMISSED.
Procedure on Objections
If any party objects to this Report and Recommendation, that party may, within fourteen days of
the date of this Report, file and serve on all parties written objections to those specific proposed
findings or recommendations to which objection is made, together with supporting authority for
the objection(s). A judge of this Court shall make a de novo determination of those portions of
the report or specified proposed findings or recommendations to which objection is made. Upon
proper objections, a judge of this Court may accept, reject, or modify, in whole or in part, the
findings or recommendations made herein, may receive further evidence or may recommit this
matter to the magistrate judge with instructions. 28 U.S.C. § 636(b)Q).
The parties are specifically advised that failure to object to the Report and Recommendation will
result in a waiver of the right to have the district judge review the Report and Recommendation
de novo, and also operates as a 1*381 waiver of the right to appeal the decision of the District
Court adopting the Report and Recommendation. See Thomas v. Arn, 474 U.S. 140, 106 S. Ct.
466. 88 L. Ed. 2d 435 119851; United States v. Walters. 638 F.2d 947 (6th Cir. 198_1J.

36

The parties are further advised that, if they intend to file an appeal of any adverse decision, they
may submit arguments in any objections filed, regarding whether a certificate of appealability
should issue.
Date: January 10, 2020
/s/ Kimberly A. Jolson
KIMBERLY A. JOLSON
UNITED STATES MAGISTRATE JUDGE

37

APPENDIX D.

10th DISTRICT OHIO
COURT OF APPEALS
OPINION

State v. Fox, 2018-0hio-501
Court of Appeals of Ohio, Tenth Appellate District, Franklin County
February 8, 2018, Rendered
No. 17AP-295

Opinion
(REGULAR CALENDAR)
DECISION
LUPER SCHUSTER, J.
[*P11 1**2261 Defendant-appellant, Lewis R. Fox, appeals from a judgment of the Franklin
County Court of Common Pleas convicting him of two counts of felonious assault with firearm
specifications. For the following reasons, we affirm.

I. Facts and Procedural History
f*P21 By indictment filed November 13, 2015, plaintiff-appellee, State of Ohio, charged Fox
with two counts of felonious assault in violation of R.C. 2903.11, with three-year firearm
specifications. Fox pleaded not guilty and the matter proceeded to a jury trial in January 2017.
As pertinent to this appeal, the following evidence was presented at trial.
[*P31 Mary Griffin testified as follows. During the evening of October 29, 2015, Mary Griffin
and her grandmother, Mary Robinson, drove to Elaine Robinson's residence. When they arrived,
Elaine opened [***21 the door and they all talked, with Mary Griffin and Mary Robinson
standing just outside the front door. At some point, Fox came down from the upstairs of the
residence, and "some words were exchanged" between Mary Griffin and Fox. (Tr. Vol. II at
160.) Fox called Mary Griffin and Mary Robinson "bitch[es]," and said if they "didn't move off
his porch that he was going to shoot" them. (Tr. Vol. II at 160.) Fox was only a few feet away
from Mary Griffin as they verbally confronted each other. Mary Griffin heard two or three
gunshots and then realized she had been shot in her upper thigh. Mary Griffin did [**227] not
see the firearm in Fox's hand prior to hearing the gunshots, but she observed Fox raise his arm
when the shots were fired. Fox had pointed the gun at Mary Griffin's leg. Mary Griffin denied
lunging at or touching Fox before the shooting. Mary Robinson was standing close behind Mary
Griffin at the time of the shooting.

39

[*P41 Mary Robinson testified as follows. On the day of the shooting, she and Mary Griffin
intended to pick up Elaine Robinson from her home because she was having problems with her
boyfriend, Fox. After they arrived at Elaine's residence, Elaine told them that Fox would
not [***3] let her go with them. Elaine called for Fox, and when he descended the stairs he was
angry and possibly drunk. Fox said, "I'm sick of you bitches.' (Tr. Vol. II at 222.) Mary
Robinson saw Fox’s right "hand coming up," and then she heard one or two gunshots. (Tr. Vol. II
at 213.) Fox was pointing the weapon at Mary Griffin. Prior to the weapon being discharged,
Mary Robinson did not see Mary Griffin touch Fox in any manner, but they were in close
proximity to each other. Mary Robinson was within arm's reach of Mary Griffin when Fox fired
the shots. Fox "didn't make any threats * * * He just shot [Mary Griffin]." (Tr. Vol. II at 236.)
No bullet struck Mary Robinson.
[*P51 Elaine Robinson, who was called as a witness on Fox's behalf, testified as follows. Fox
and Elaine were living together on the day of the shooting. On that day, Mary Griffin and Mary
Robinson arrived at Elaine and Fox's residence upset because of statements Fox had made
regarding Mary Robinson. Elaine called for Fox and told him that "Mary and them are at the
door." (Tr. Vol. Ill at 350.) Fox came down the stairs and to the front door. Elaine did not see
Fox carrying a weapon until she heard two gunshots. Fox did not point [***4] the weapon at
anyone. When Fox fired the weapon, he was falling backward in response to Mary Griffin
moving her hands toward Fox. Elaine characterized the shooting as being an accidental
consequence of Fox stumbling backward. Elaine also testified that she told the police after the
shooting that Fox shot downward at the porch to scare away Mary Griffin and Mary Robinson.
[*P61 Fox testified on his own behalf. At approximately 8:00 p.m. on the day of the shooting,
Fox was upstairs at his residence when he heard loud voices downstairs. Fox heard someone
screaming in anger and then heard Elaine call for him in a distressed manner. Because he was
concerned that there was an intruder in the house, he grabbed a gun from his bedroom closet and
brought it with him down the stairs. Holding the gun hidden behind his leg with his finger on the
trigger, Fox stood in the doorway to the home and told Mary Griffin and Mary Robinson that
they needed to leave. Mary Griffin then "lunged" at him like she was going to grab him. (Tr. Vol.
Ill at 446.) Fox testified that he accidentally shot the firearm twice. Fox "stumbled back * * *
and the firearm just discharged." (Tr. Vol. Ill at 446.) He "even [saw] the [***5J_ fire shoot out
twice, shot twice." (Tr. Vol. Ill at 447.) He did not either raise the gun or shoot at the ground on
purpose. After the weapon fired twice, Fox dropped it on a chair inside the house. When asked
how the firearm discharged, Fox explained, "I guess I squeezed the trigger or something. You
know how you're - - an excited moment. I mean, it surprised me." (Tr. Vol. Ill at 457.)
[*P71 After the shooting, and based on information Fox provided, police recovered a five-shot
revolver in the kitchen of Elaine and Fox's residence. Two of the rounds were spent, and the
other three were unfired. Columbus Division of Police Detective Steven Miller, who interviewed
Fox on the night of the shooting, testified r**2281 that the gun recovered from the scene of the
shooting was a "double-action" firearm. (Tr. Vol. Ill at 288.) For this type of firearm, the
hammer must be pulled back with a squeeze or pull of the trigger in order to fire each bullet. The
parties stipulated that Mary Griffin sustained an injury consistent with a single gunshot that
entered her right thigh and exited her right buttock at a down to up trajectory.

40

f*P81 At the conclusion of trial, Fox's counsel requested that the trial court instruct [***6j_ the
jury on the offense of negligent assault in addition to instructing the jury on the charged offense
of felonious assault. The trial court declined to give the requested negligent assault instruction,
and the jury found Fox guilty on both counts of felonious assault with firearm specifications. The
trial court sentenced Fox to a total of ten years in prison. Fox timely appeals.

II. Assignments of Error
f*P91 Fox assigns the following errors for our review:
[1.] The trial court erred and deprived appellant of due process of law as guaranteed by
the Fourteenth Amendment to the United States Constitution and Article One Section Ten of the
Ohio Constitution by finding him guilty of felonious assault as those verdicts were not supported
by sufficient evidence and was also against the weight of the evidence.
[2.] The trial court abused its discretion by not instructing the jury on the offense of negligent
assault as a lesser included offense of felonious assault.

III. Discussion
A. First Assignment of Error — Sufficiency and Manifest Weight of the Evidence
f*P101 Fox's first assignment of error alleges that both of his felonious assault convictions were
not supported by sufficient evidence and were against the manifest weight of the evidence. HN1
Whether there [***71 is legally sufficient evidence to sustain a verdict is a question of
law. State v. Thomvkins. 78 Ohio St.3d 380, 386,1997- Ohio 52, 678 N.E.2d 541.
H997T Sufficiency is a test of adequacy. MThe relevant inquiry for an appellate court is
whether the evidence presented, when viewed in a light most favorable to the prosecution, would
allow any rational trier of fact to find the essential elements of the crime proven beyond a
reasonable doubt. State v. Mahone. 10th Dist. No. 12AP-545. 2014-Qhio-1251, *1 38, citing State
v. Tenace. 109 Ohio St.3d 255. 2006-Qhio-2417, IT 37, 847 N.E.2d 386.
[*PH1 HN2
When presented with a manifest weight argument, an appellate court engages
in a limited weighing of the evidence to determine whether sufficient competent, credible
evidence supports the jury's verdict. State v. Salinas, 10th Dist. No. 09AP-12Q1, 2010-Qhio4738.1132, citing Thomvkins at 387. "When a court of appeals reverses a judgment of a trial
court on the basis that the verdict is against the weight of the evidence, the appellate court sits as
a 'thirteenth juror' and disagrees with the factfinder's resolution of the conflicting
41

testimony." Thomnkins at 387, quoting Tibbs v. Florida, 457 U.S. 31, 42, 102 S. Ct. 2211, 72 L.
Ed 2d 652 0 982). Determinations of credibility and weight of the testimony are primarily for
the trier of fact. State v. DeHass. 10 Ohio St.2d 230. 227 N.E.2d 212 (1967), paragraph one of
the syllabus. Thus, the jury may take note of the inconsistencies and resolve them accordingly,
"believ[ing] all, part, or none of a witness's testimony." State v. Raver. 10th Dist. No. 02AP-604,
2003-Qhio-958.^21 1**2291 , citing State v. AntilL 176 Ohio St. 61, 67, 197 N.E.2d 548
(T964).
__________
f*P121 HN3 An appellate court considering a manifest weight challenge [***8]_ "may not
merely substitute its view for that of the trier of fact, but must review the entire record, weigh the
evidence and all reasonable inferences, consider the credibility of witnesses, and determine
whether, in resolving conflicts in the evidence, the trier of fact clearly lost its way and created
such a manifest miscarriage of justice that the conviction must be reversed and a new trial
ordered." State v. Harris. 10th Dist. No. 13AP-770, 2014-Qhio-2501, If 22, citing Thompkins at
387. Appellate courts should reverse a conviction as being against the manifest weight of the
evidence only in the most "'exceptional case in which the evidence weighs heavily against the
conviction.'" Thomnkins at 387. quoting State v. Martin. 20 Ohio App.3d 172, 175, 20 OhioJB.
215. 485 N.E.2d 717 fist Dist. 1983).
[*P131 Fox was convicted of violating R.C. 2903.11. which states in pertinent part that "[n]o
person shall knowingly do either of the following: (1) Cause serious physical harm to another * *
* [or] (2) Cause or attempt to cause physical harm to another * * * by means of a deadly
weapon." In challenging his convictions, Fox asserts that Mary Griffin lunged at him during their
confrontation, causing him to fall backward over a piece of furniture and accidentally fire the
weapon. He argues that he did not have the mental state required to be convicted of felonious
assault.
__________
[*P141 HN4"A person acts [***91 knowingly, regardless of purpose, when the
person is aware that the person's conduct will probably cause a certain result or will
probably be of a certain nature." R.C. 2901.22(B). When determining whether a defendant
acted knowingly, his state of mind must be determined from the totality of the
circumstances surrounding the alleged crime. State v. Ingram, 10th Dist. No. 11AP-1124,
2012-Qhio- 4075. f 22. Culpable mental states are frequently demonstrated through
Evidence that a defendant fired a gun in a person's
circumstantial evidence. Id. HNS
direction is sufficient evidence that the defendant acted knowingly for the purpose of a
felonious assault conviction. State v. Jefferson. 6th Dist. No. L-16-1182, 2017-Ohio-7272,_j[
17.
[*P151 The evidence presented at trial reasonably demonstrated that Fox acted knowingly in
causing serious physical harm to Mary Griffin and in attempting to cause physical harm to Mary
Robinson by means of a deadly weapon. According to Fox s testimony, the shooting was an
accident. However, even if it was not Fox's intent to injure either Mary Griffin or Mary
Robinson, he fired the weapon under circumstances where the risk of injury supported the
inference that he acted knowingly. Mary Griffin testified that Fox threatened to shoot her and
42

Mary Robinson if they did not move off his porch. Fox admitted at trial [***10] that he had his
finger on the trigger when he confronted Mary Griffin and Mary Robinson at the door of his
residence, demonstrating he was prepared and ready to fire the weapon. Testimony at trial also
showed that the trigger of the gun that he fired twice had to be squeezed for each bullet discharge
with a force sufficient to pull the hammer back. Further, Fox, Mary Griffin, and Mary
Robinson were all in close proximity to each other when Fox fired the shots, and both Mary
Griffin and Mary Robinson testified that Fox pointed the weapon in Mary Griffin's
direction. One of the bullets struck Mary Griffin in the thigh. Additionally, testimony
indicated that Mary Robinson was 1**2301 standing close behind Mary Griffin when Fox
fired the two shots, and thus she was also in the line of fire. Considering this evidence, the
jury reasonably disbelieved Fox's explanation that the shooting was an accident and
convicted Fox of two counts of felonious assault.
f*P161 In sum, the evidence was sufficient to convict Fox of committing two counts of
felonious assault, and Fox fails to show that the jury clearly lost its way and created a manifest
miscarriage of justice. Because Fox's convictions were supported by [***11] sufficient evidence
and were not against the manifest weight of the evidence, we overrule Fox's first assignment of
error.

B. Second Assignment of Error — Jury Instruction on Negligent Assault
f*P171 Fox's second assignment of error alleges the trial court erred in not instructing the jury
on the offense of negligent assault in regard to Count 1 of the indictment (Fox's alleged assault of
Mary Griffin). This assignment of error lacks merit.
This court reviews a trial court's refusal to instruct the jury on a lesserr*P181 HN6
included offense under the abuse of discretion standard. State v. Coleman-Muse. 10th Dist. No.
15AP-566. 2016-Ohio-5636. If 8; State v. Parnell. 10th Dist. No. 11AP-257, 2011-Ohio-6564, If
21-27. The term "abuse of discretion" connotes more than an error of law or judgment; it implies
that the court's attitude is unreasonable, arbitrary, or unconscionable. State v. Clark, 71 Ohio
St.3d 466. 470. 1994- Ohio 43. 644 N.E.2d 331 (1994).
[*P191 R.C. 2903.14(A) states that "[n]o person shall negligently, by means of a deadly weapon
negligent assault, as
cause physical harm to another." This court has held that HN7
defined by R.C. 2903.14. is a lesser-included offense of felonious assault, as defined by R,C
2903.11(A)(2) (the provision prohibiting anyone from knowingly causing physical harm to
another by means of a deadly weapon). State v. Anderson, 10th Dist. No. 06AP-174, 2006-0hi<>
6152,1138.
* * *

An instruction on a lesser-included offense is required only when the
f*P201 HN8
evidence presented at trial would reasonably [***121 support both an acquittal on the crime
charged and a conviction on the lesser-included offense. Anderson at If 39, citing State v. Carter,
43

89 Ohio St.3d 593. 600. 2000- Ohio 172. 734 N.E.2d 345 (2000); see State v. Wine, 140 Ohio
St.3d 409. 2014-Ohio-3948. f 34, 18 N.E.3d 1207 (a trial court "must give an instruction on a
lesser included offense if under any reasonable view of the evidence it is possible for the trier of
fact to find the defendant not guilty of the greater offense and guilty of the lesser offense").
[*P2H HN9
In deciding whether to provide a lesser-included offense instruction, the trial
court must consider both the state's evidence and the defense s evidence, and it must view the
evidence in the light most favorable to the defendant. Anderson at f 39; State v. Monroe, 105
Ohio St.3d 384. 2005-Qhio-2282. f 37. 827 N.E,2d 285. An instruction on a lesser-included
offense is not warranted, however, every time "some evidence" is presented to support the lesser
offense. State v. Noor. 10th Dist. No. 13AP-165, 2014-Ohio-3397,11 84. The court must find
"sufficient evidence" to allow a jury to reasonably reject the greater offense and find the
defendant guilty on a lesser-included (or inferior degree) offense. Id. For example, "a defendant's
own testimony that he did not intend to kill his victim does not entitle him to a lesser-included
offense instruction 'if the evidence on whole does not reasonably support an acquittal on the
murder offense r***131 and a conviction [**2311 on a lesser offense.'" Id., quoting States
Willis. 8th Dist. No. 99735. 2014-Qhio-l 14, f 51.
[*P221 Therefore, the issue presented here is whether the evidence at trial supported both an
acquittal as to the charged offense of felonious assault and a conviction for negligent
____
A key distinction between the offenses of felonious assault and negligent
assault. HN10
assault is that felonious assault requires a knowing mental state, whereas a negligent mental state
is sufficient to establish negligent assault. Anderson at 1139. While a knowing mental state
indicates awareness of the probability that one's conduct will cause a certain result or be of a
certain nature, a "person acts negligently when, because of a substantial lapse from due care, the
person fails to perceive or avoid a risk that the person's conduct may cause a certain result or
may be of a certain nature." R.C. 2901.22(D).
1*P231 According to Fox's testimony, he fired the gun accidentally twice, and he argues on
appeal that he lacked due care by bringing the gun with him down the stairs to confront the
people at his door. Fox's trial testimony seemed to suggest his view that he lacked any culpable
mental state regarding the firing of the weapon. However, having the trial court instruct the
jury |-***|4] on the offense of negligent assault, in addition to the charged offense of felonious
assault, would be inconsistent with an assertion of lack of any culpability. Rather, an acquittal
would have been the appropriate outcome if in fact he lacked any culpable mental state. On
appeal, Fox suggests that the discharge of the weapon was an accident caused by his
negligence. He argues that his discharge of the weapon was the result of him negligently
deciding to bring the weapon with him to confront Mary Griffin and Mary Robinson. Certainly,
it is possible that a deviation from due care may cause an "accidental" shooting. See, e.g., Inre
I.L.J.F.. 12th Dist. No. CA2014-12-258. 2015-Ohio-2823. However, Fox’s decision to bring the
weapon with him to confront Mary Griffin and Mary Robinson at his front door was not the basis
of the felonious assault charges and his subsequent conduct demonstrated a more culpable
mental state. The assaults occurred when Fox fired the weapon twice when Mary Griffin and
Mary Robinson were within a few feet of him. And the undisputed evidence further
demonstrated that Fox had to pull the trigger each of the two times he engaged the firing
44

mechanism with enough force to pull the hammer back. On these facts, in view of
the [***151 undisputed evidence, no reasonable jury could have found that Fox's self-asserted
deviation from due care—i.e., his decision to bring the firearm with him to confront Mary Griffin
and Mary Robinson—proximately caused physical harm to Mary Griffin, i____
[*P241 Because the evidence at trial did not reasonably support both an acquittal for felonious
assault and a conviction for negligent assault, the trial court did not abuse its discretion in
declining to instruct the jury on negligent assault. Therefore, we overrule Fox's second
assignment of error.

IV. Disposition
[*P251 Having overruled Fox's first and second assignments of error, we affirm
the 1**2321 judgment of the Franklin County Court of Common Pleas.
Judgment affirmed.
SADLER, J., concurs.
HORTON, J., concurs in part and dissents in part.

Concur by: HORTON (In Part)
Dissent by: HORTON (In Part)

Dissent
HORTON, J., concurring in part and dissenting in part.
r*P261 While I concur with the majority's decision to overrule the first assignment of error, I
respectfully dissent from its conclusion that the second assignment of error is without merit.
[*P271 The majority correctly frames the issue as "whether the evidence at trial supported both
an acquittal as to the charged offense of felonious assault and a [*** 161 conviction for negligent
assault." (Majority Decision at H 22.) However, the majority seems to suggest that a legal error
would always occur if a lesser-included offense of negligent assault were ever given in a
felonious assault case due to the "inconsistent" mens rea involved. (Majority Decision at ^ 23.) I
believe this to be an error in reasoning. Additionally, the majority appears to misinterpret Fox s
testimony that he accidentally fired the weapon as an "assertion of lack of any culpability.
45

(Majority Decision at f 23.) To the contrary, accidental discharge of a weapon is entirely
consistent with the mental state of negligence. For example, in In re I.L.J.F., 12th Dist. No..
CA2014-12-258. 2Q15-Ohio-2823. an appellate court affirmed the delinquent adjudication of a
juvenile for negligent assault under R.C. 2903.14 who accidentally shot a friend. He had brought
the gun into a vehicle full of persons high on marijuana, held it while dancing and shrugging
his shoulders," and, when the driver took a turn too fast, the gun went off accidentally and shot
his friend in the back. Id. at 133. There is no contradiction or inconsistency in arguing that an
accidental act is negligent. If Fox had sought to deny any lack of culpability, his testimony
would [***171 not allow for an accident based on a lack of due care.
f*P281 The majority has also too narrowly defined the temporal span when Fox's actions lacked
due care, confining it to only the moment he pulled the trigger. In re I.L.J.F. also illustrates that a
defendant's actions leading up to the discharge of the weapon can be probative of a negligent
mental state, as the juvenile in that case should never have brought the gun into the car or held it
up during the joyride. Here, Fox brought the weapon downstairs and held it in his non-dominant
hand, which he had just had eight weeks of physical therapy on before the shooting due to nerve
problems. (Tr. at 455.) This was a substantial lapse in due care from which a reasonable jury
could conclude that Fox acted negligently.
[*P291 "The persuasiveness of the evidence regarding the lesser included offense is irrelevant.
If under any reasonable view of the evidence it is possible for the trier of fact to find the
defendant not guilty of the greater offense and guilty of the lesser offense, the instruction on the
lesser included offense must be given." State v. Wilkins, 64 Ohio St.2d 382, 388, 415_N.E.2d 303
Cl 980). Taking a reasonable view of the evidence in this case, it would be possible for a jury to
return a verdict f***181 finding Fox not guilty of felonious assault, and, instead, guilty of
negligent assault. Thus, it was unreasonable for the trial court to refuse to instruct the jury on the
lesser-included offense. Because in doing so the trial court abused its discretion, I would sustain
the second assignment of error.
Footnotes
•

.. ..... .... ............. ... .......... .............,............... -...... ... —.._

1
Contrary to the dissent's assertion, we do not suggest that it never would be appropriate to
give both a negligent assault charge and a felonious assault charge to a jury. We find that,
under the facts of this case, it was not an abuse of discretion for the trial court not to
instruct the jury on the offense of negligent assault.

46

